  Office of Inspector General
        Audit Report

IMPROVEMENTS TO STEWARDSHIP AND OVERSIGHT
    AGREEMENTS ARE NEEDED TO ENHANCE
 FEDERAL-AID HIGHWAY PROGRAM MANAGEMENT
         Federal Highway Administration
          Report Number: MH-2013-001
          Date Issued: October 1, 2012
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:       ACTION: Improvements to Stewardship and                                   Date:    October 1, 2012
               Oversight Agreements Are Needed To Enhance
               Federal-aid Highway Program Management
               Federal Highway Administration
               Report No. MH-2013-001

  From:        Joseph W. Comé                                                         Reply to
                                                                                      Attn. of:   JA-40
               Assistant Inspector General for
                 Highway and Transit Audits

    To:        Federal Highway Administrator

           The Federal Highway Administration (FHWA) oversees billions of dollars in
           Federal-aid Highway Program (FAHP) funds provided annually to the States and
           local public agencies (LPAs) 1 and American Recovery and Reinvestment Act
           (ARRA) funds for highway infrastructure investments. 2 To oversee this substantial
           investment, FHWA relies greatly on the States to monitor the thousands of
           projects receiving Federal funds. Stewardship and Oversight Agreements
           (Agreements), which are required by law, formalize the roles and responsibilities
           of FHWA Division Offices and the States to ensure adequate oversight of Federal
           funds, project quality, and safety. 3 FHWA formalized its process for developing
           Agreements in its April 2006 and August 2011 Stewardship and Oversight
           Agreement Guidance. 4
           As part of our ongoing ARRA oversight, we conducted this audit to assess
           whether FHWA Stewardship and Oversight Agreements address Federal
           requirements and program risks, including those required by the Recovery Act.
           The objectives of this audit were to determine the extent to which FHWA
           (1) established Agreements that fully reflected Federal requirements and its own
           1
               LPAs include counties and cities.
           2
               Pub. L. No. 111-5 (2009).
           3
               FHWA has 55 Agreements nationwide, one with each State, the District of Columbia, the Virgin Islands, Guam,
               American Samoa, and the Northern Mariana Islands. A current Agreement with Puerto Rico has not been executed.
           4
               FHWA’s April 14, 2006, “Federal-aid Highway Program Stewardship/Oversight Agreement Guidance,” was in
               effect when we started our review, and was revised on July 1, 2011, and transmitted to Division Administrators on
               August 16, 2011.
                                                                                  2


key program risks and priorities and (2) provided sufficient Headquarters guidance
and oversight of the development and timely update of Agreements. To conduct
our audit, we analyzed all 55 Agreements, interviewed Division Administrators
from a random sample of 9 States, and evaluated FHWA’s April 2006 and August
2011 Guidance. Exhibit A contains a detailed description of our scope and
methodology.
We conducted this performance audit in accordance with generally accepted
Government auditing standards.

RESULTS IN BRIEF
While FHWA fulfilled the statutory mandate to enter into Agreements with each
State, the Agreements do not consistently reflect Federal requirements, or program
risks and priorities that FHWA has identified and communicated to its Division
Offices. Specifically, Agreements did not consistently address risks related to
ARRA implementation and LPAs’ management of FHWA funds, Federal highway
safety priorities, and use of performance and compliance indicators to measure the
impact of the FAHP. For example, only 9 of 55 Agreements refer to ARRA,
despite it being major legislation that imposed extensive financial and reporting
requirements. Also, we found that FHWA was not fully implementing its statutory
oversight responsibilities on about 600 of 2,500 Interstate Highway System
projects, which included about $5 billion in Federal funds, by allowing States to
assume project oversight responsibilities reserved to FHWA by law. For example,
Texas was allowed to assume oversight of a bridge reconstruction project that
included about $110 million in Federal funds. Collectively, these exclusions and
inconsistencies reduce the ability of the Division Offices and States to utilize the
Agreements as an internal control tool to carry out ARRA and FAHP oversight
responsibilities effectively.
FHWA Headquarters has not provided sufficient guidance and oversight to
Division Offices for the development and update of Agreements to ensure that
inconsistencies reflect valid differences among the States and to ensure that legal
issues are identified. We found a wide variation in the detail included in each
Agreement, ranging from high-level to more detailed descriptions of roles and
responsibilities for overseeing federally funded projects, and none of the
Agreements cited a clear systematic methodology for the inclusion or exclusion of
certain program risk areas. FHWA’s 2006 Guidance, which was used to develop
the Agreements we reviewed, did not clearly state what Division Offices were
expected to include in Agreements or when to update them. While FHWA
Headquarters intended the Guidance to be more than suggestions, it only states
that Division Offices were required to address 5 specific elements—environment,
right-of-way, safety, systems operations and preservation, and design and
construction; but even then, only 32 of the 55 Agreements included all 5 elements.
                                                                                 3


The Guidance did not require Division Offices to document their rationale for
omitting certain elements. In comparison, the 2011 Guidance is even less
prescriptive and does not contain requirements for including elements or updating
Agreements. While we agree with FHWA that the Guidance should be flexible to
allow Division Offices to tailor Agreements to meet the specific conditions in each
State, we maintain that prescriptive guidance would provide FHWA with greater
assurance that Agreements address key requirements and priorities, reflect current
conditions in each State, and promote FHWA’s commitment to a risk-based
oversight approach. Furthermore, the Guidance does not address important control
steps such as whether Agreements should be reviewed by Headquarters or legal
experts before Agreements are signed, and it is not clear who in FHWA has the
authority to sign an Agreement.
We are making a series of recommendations to strengthen FHWA’s oversight of
Stewardship and Oversight Agreements.

BACKGROUND
Agreements are one of several risk-based oversight tools FHWA employs to
leverage Division Office resources by allowing States to assume oversight
responsibility and approval authority to manage the great majority of FAHP
projects. The Agreements between FHWA and the States cover oversight of the
FAHP and formally communicate Federal requirements, policy concerns, Federal
and State roles and responsibilities, and individualized priorities to each State—
all in one document. In addition, the Agreements commit FHWA and the States to
agreed-upon roles and responsibilities for an indefinite time period.

FHWA first introduced agreements with the States in response to the Intermodal
Surface Transportation Efficiency Act of 1991 (ISTEA). 5 However, formal
agreements were not required until 1998, when the Transportation Equity Act for
the 21st Century (TEA-21) 6 required FHWA to enter into formal agreements with
States—relating to the extent to which States assume FAHP oversight
responsibilities. For these Agreements, FHWA defined “stewardship” as the
efficient and effective management of the public funds entrusted to FHWA, and
“oversight” as the act of ensuring that the FAHP is delivered consistent with
applicable laws, regulations, and policies.
FHWA outlined its approach to Agreements in its 2006 Guidance, which was
revised in its 2011 Guidance. Both versions of the Guidance refer to the
Agreement as a “road map” for effective oversight and stewardship of the FAHP,
and note that FHWA intended to outline basic stewardship concepts and

5
    Pub. L. No. 102-240.
6
    Pub. L. No. 105-178, Section 1305.
                                                                                 4


approaches, rather than mandate specific procedures. Both versions also provide
Division Offices wide discretion in tailoring Agreements to meet the needs of
individual States. According to the 2011 Guidance, with the passage of the Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users
(SAFETEA-LU) 7 in 2005 “…the overall program has evolved requiring a more
comprehensive Agreement that covers project delivery and financial controls of
the FAHP.”

FHWA is accountable for ensuring that FAHP projects meet Federal requirements
and for performing responsibilities that by law cannot be assigned to States or
LPAs. For example, under 23 United States Code 106, FHWA must perform
certain roles and responsibilities, such as approval and oversight on certain types
of projects. To help accomplish its oversight, each FHWA Division Office
assesses State oversight accordingly and does this through annual risk
assessments, program assessments, program reviews, certification reviews,
recurring reviews, and project inspections to identify State oversight and program
areas with the greatest risk.

FHWA AGREEMENTS WITH STATES DO NOT CONSISTENTLY
REFLECT REQUIREMENTS, PROGRAM RISKS, AND FHWA
PRIORITIES
While FHWA fulfilled the statutory mandate to enter into Agreements with States,
the Agreements do not consistently reflect Federal requirements, program risks,
and priorities. In particular, Agreements do not consistently reflect a
comprehensive FHWA and State approach to oversight of the $27.5 billion ARRA
investment, oversight of multi-billion dollar LPA investments, critical Federal
highway safety priorities, and the use of performance and compliance indicators.
Agreements are a key internal control in managing the FAHP. Exclusions and
inconsistencies in Agreements could reduce the ability of Division Offices and
States to fully utilize the Agreements as a road map for carrying out ARRA and
FAHP oversight responsibilities or risk-based management. Further, FHWA is not
fully implementing its statutory oversight responsibilities for certain projects by
allowing States to assume areas of project oversight that were mandated by law to
FHWA.

Agreements Did Not Consistently Address ARRA, LPAs, Safety
Priorities, and Performance and Compliance Indicators
FHWA has issued numerous regulations, policies, memoranda, studies, and
guidance outlining program risks and priorities related to ARRA, LPAs, highway

7
    Pub. L. No. 109-59.
                                                                                                                     5


safety, and performance and compliance indicators. However, these FHWA-
identified risks and priorities were not reflected consistently in the Agreements
between FHWA and the States. Table 1 below identifies four areas of Agreements
that we reviewed in depth and summarizes the results found.

Table 1. Summary Results of 55 Agreements Reviewed
    FHWA Program                      Agreement            Agreement            Agreement
    Risks and Priorities                 Did Not         Included But             Included                   Not
    Reviewed                             Include         Not In Depth             In Depth            Applicable
    ARRA Legislation                             46                    4                    5                     0
                                                                                                                  a
    LPA Oversight                                 3                   25                   22                    5
                                                                                                                  b
    Safety Priorities                             9                   40                    2                    4
    Performance and
                                                 27                    0                   28                     0
    Compliance Indicators

Source: OIG analysis.
a
    According to FHWA, there are no LPA-related activities.
b
    According to FHWA, these safety priorities do not apply to the U.S. Virgin Islands, Guam, American Samoa, and the
    Northern Mariana Islands.

Agreements frequently did not reflect the additional oversight risks and
requirements that ARRA posed. Only a few of the Agreements we reviewed
included any specific ARRA requirements that were statutorily imposed, such as
new financial reporting requirements, even though ARRA presents an ongoing
oversight risk for over a 6½-year period. Further, ARRA increased Division Office
and State workloads—investing in about 13,000 highway infrastructure projects
across the Nation. FHWA’s April 2009 ARRA Risk Management Plan identified
potential risk areas in the oversight of ARRA projects, including, for example,
LPA oversight, States’ oversight of contract administration, quality assurance, use
of disadvantaged business enterprises, and improper payments.
Although ARRA imposed extensive certification, reporting, and financial
requirements, 46 of the 55 Agreements we reviewed did not mention ARRA. Of
the remaining nine Agreements, four mentioned ARRA, but only in a cursory
manner. For example, the Agreement for California, which received about
10 percent of ARRA highway infrastructure grants, simply made a few brief
background-related references to ARRA, while providing no detail of related
FHWA and State roles and responsibilities. For the other five Agreements, the
Division Offices responsible for Colorado, Louisiana, South Carolina, Virginia,
and West Virginia recognized ARRA’s significant oversight risks and updated
their Agreements accordingly.
FHWA did not agree that the Agreements should have been updated to reflect
ARRA, believing that the 2009 Risk Management Plan was sufficient to address
this new program since this document is used by the Division Offices to plan their
                                                                                                                  6


oversight actions. FHWA’s Risk Management Plan, however, is an internal
planning document that discusses risks associated with ARRA and risk mitigation
strategies. The plan does not focus on how ARRA may have altered State roles
and responsibilities, or whether ARRA may have resulted in the need to adjust
Agreements accordingly. The lack of attention to ARRA in most Agreements also
runs counter to FHWA’s 2009 ARRA guidance on Federal-aid Program
Stewardship and Oversight, which recommended that Division Offices adjust their
stewardship and oversight activities “…to account for the high visibility and
degree of risk that is associated with delivering this large infusion of funds.”
Furthermore, the 2011 Guidance now recognizes the necessity to update
Agreements, stating that “…updates to an Agreement should be
considered…when significant new legislation…occurs,” which would certainly
apply to ARRA. By not amending Agreements to address changes in FHWA and
State roles and responsibilities due to ARRA, FHWA leaves itself vulnerable to
misunderstandings on how risk mitigation strategies would be implemented and on
each party’s responsibilities in carrying out ARRA requirements.
Agreements did not consistently reflect LPA oversight risks. Each year, States
entrust approximately $8 billion in FAHP funds to LPAs. In addition to the annual
FAHP funding, ARRA invested an estimated $8 billion in LPA projects over a
6½-year period. FHWA has identified, and our prior work has pointed out, 8 key
LPA program oversight risks, including inadequate contract administration,
quality assurance processes, and noncompliance with Federal requirements.
Despite the risks FHWA identified and the long history of internal control
weaknesses in the management of LPAs, only 22 of the 55 Agreements we
reviewed addressed State and LPA roles and responsibilities in depth, while an
additional 25 only cursorily included LPA oversight. The Connecticut Agreement,
for example, included a detailed matrix of the roles and responsibilities of LPAs in
the administration of the FAHP. In contrast, the Illinois Agreement makes a
general reference to State responsibilities to ensure Federal requirements are met
on locally administered projects, but no specifics are provided.
Additionally, in December 2006, FHWA’s Office of Professional and Corporate
Development recommended that States implement Local Project Stewardship
Agreements with LPAs, but we found that only 12 States had done so.
Accordingly, Agreements did not consistently detail how LPA oversight risks
should be addressed, despite being a concern of FHWA management for many
years.
Agreements did not consistently reflect FHWA’s safety priorities. FHWA
considers safety of such importance that FHWA’s National Highway Institute
8
    OIG Report Number MH-2011-146, “Federal Highway Administration’s Oversight of Federal-aid and Recovery Act
    Projects Administered by Local Public Agencies Needs Strengthening,” July 15, 2011. OIG reports are available on
    our Web site: www.oig.dot.gov.
                                                                                                                7


training emphasizes that stewardship and oversight responsibilities, especially as
related to “…the Highway Safety Improvement Program, as well as other critical
safety considerations, should be reflected in the stewardship and oversight
agreements developed by each Division.” 9 FHWA’s Office of Safety guidance to
Division Offices identified five critical safety areas to be included in Agreements,
including the Highway Safety Improvement Program (HSIP), Strategic Highway
Safety Plan, Crash Data Systems and Analysis, Required Safety Program, and
Focused Safety Program. FHWA also provided a fully worded, ready-to-use
“Sample Agreement” template addressing elements within each of the five safety
areas that could be incorporated into Agreements. For example, the HSIP template
section includes agreement language that the “State will annually submit required
reports on the effectiveness of the HSIP program….” Although safety is one of
FHWA’s priorities and FHWA emphasized the importance of it in Agreements in
a separate memorandum, our review found that only 2 of the 51 Agreements
included all of the 5 critical safety areas, while 40 Agreements
(78 percent) included some elements, and 9 Agreements (18 percent) did not
include any. 10 The two Agreements that included all five safety areas, Indiana and
North Carolina, closely followed the template provided by FHWA’s Office of
Safety and included most of the recommended language in each safety area.

Agreements did not consistently provide performance and compliance
indicators. FHWA’s 2006 and 2011 Guidance recommend that the States and
Division Offices use indicators, such as project cost escalation, level of oversight,
or project delivery, to assess the effectiveness of State-assumed responsibilities,
and evaluate performance and compliance with Federal requirements. FHWA
envisioned a joint State and Division Office examination and discussion of
performance data at least annually to effectively manage and improve program
delivery. Further, the establishment and review of performance measures and
indicators help ensure that actions are taken to address risks. Yet, we found that
only 28 of the 55 Agreements we reviewed included some form of data-driven
performance and compliance indicators to track whether FAHP processes are
working as intended. By not establishing such indicators in Agreements, FHWA
limits its ability to carry out a risk-based oversight approach and assess
performance.
FHWA’s agreement with Georgia provides an example of an Agreement that
included performance indicators. The Georgia Agreement identified
38 performance indicators, such as “Percent of contracts (completed) with less
than 10 percent cost increase” and “Value engineering annual cost savings.”
Indicators such as the ones identified in the Georgia Agreement are necessary to

9
     Module 10 from the National Highway Institute course, Federal-aid 101, “Safety.”
10
     According to FHWA, these critical safety considerations do not apply to the following 4 of the 55 Agreements:
     the U.S. Virgin Islands, Guam, American Samoa, and the Northern Mariana Islands.
                                                                                                                 8


support FHWA’s risk-based oversight approach, alerting Division Offices and
States to implement countermeasures or adjust oversight when performance data
are not moving in the desired direction.

FHWA Had Not Fully Implemented Its Statutory Oversight
Responsibilities for Projects on the Interstate Highway System
In 1998, TEA-21 required FHWA to enter into agreements with States regarding
the extent to which each State can assume FAHP oversight responsibilities.11
Based on our review, the language of TEA-21 did not extend oversight authority
to States on new or reconstruction projects on the Interstate Highway System that
cost $1 million or more. Oversight for these projects was the responsibility of the
Federal Government. However, we found that FHWA had agreed to a practice of
pre-approving projects in lieu of States assuming full oversight responsibilities,
and nine Division Offices had entered into Agreements that allowed States to
assume such responsibility.
In regard to the Agreements, FHWA explained that it had simply pre-approved
projects that it considered “inherently low-risk” projects, in advance of actual
delivery of the projects’ designs, plans, specifications, estimates, contract awards,
contract administration, and inspections. FHWA stated that pre-approving
inherently low-risk projects fulfilled FHWA’s oversight responsibilities through
risk management. 12 While FHWA’s policy of pre-approving “inherently low-risk”
projects might be consistent with its risk-based approach to oversight, we are still
concerned that FHWA’s practice of entering into Agreements that substitute State
oversight for FHWA oversight was inconsistent with Federal law. We do not agree
with FHWA’s position, as we found no practical difference between FHWA’s pre-
approval approach and States’ assumption of oversight responsibilities reserved to
FHWA by law. Regardless of how this practice was labeled, FHWA is
relinquishing significant oversight responsibility to the States.
FHWA has entered into Agreements that allow States to assume oversight
authority on new or reconstruction projects on the Interstate Highway System that
cost well in excess of $1 million. For example, FHWA’s Agreement with Texas
allowed the State to assume “FHWA’s responsibilities for all project approval and
oversight for Federal-aid projects…except those designated as Federal oversight
projects.” The Agreement states that the established threshold for designating an
Interstate project as a Federal oversight project is that the project costs are equal to
or greater than $4 million, $10 million, or $30 million, depending on the project’s
location in Texas. With FHWA overseeing only those projects with costs that far

11
   Our work was performed prior to the July 6, 2012, Moving Ahead for Progress in the 21st Century Act (Pub. L. No.
   112-141).
12
   FHWA’s February 22, 2007, memorandum, “Inherently Low-Risk Oversight Projects on the Interstate System -
   Programmatic Agreement,” defines for the Division Offices inherently low-risk projects.
                                                                                                                    9


exceeded the statutory threshold of $1 million, FHWA’s Agreement allowed
Texas to assume oversight authority beyond that allowed by law.
Furthermore, based on data in the FHWA Fiscal Management Information System
(FMIS), we identified about 600 of 2,500 new or reconstruction projects on the
Interstate Highway System, receiving $5 billion of Federal funds, that cost
$1 million or more each. 13 FHWA improperly allowed States to assume oversight
responsibilities on these projects. For example, Texas was allowed to assume
oversight of a bridge reconstruction project even though it included about
$110 million in Federal funds. We also found that FHWA was not consistently
applying its approach of limiting pre-approval to inherently low-risk projects. For
instance, FHWA allowed States to assume oversight of 23 “design-build”
Interstate projects, totaling $302 million in Federal funds, which are specifically
excluded from being defined as inherently low-risk in FHWA’s 2007 guidance. 14

FHWA GUIDANCE AND OVERSIGHT ARE NOT SUFFICIENT FOR
DEVELOPMENT AND UPDATE OF AGREEMENTS
FHWA Headquarters did not give sufficient guidance to Division Offices or
adequately oversee the development and update of Agreements. Neither the 2006
nor the 2011 Guidance is sufficiently clear as to what the Agreements are required
to contain. Additionally, FHWA oversight has not been sufficient to make sure
Agreements are updated when conditions change and that Agreements reflect
FHWA’s commitment to its risk-based oversight approach.

Guidance for the Development of Agreements Was Not Clear
FHWA’s 2006 Guidance was not clear as to what elements were expected to be
included in the Agreements. An FHWA Headquarters official responsible for the
development of the Guidance stated that that the Guidance is intended to be more
than suggestions and expects Division Offices to follow the Guidance to the
maximum extent applicable, consistent with the unique conditions in their States.
However, this intent was not stated in either the 2006 or the 2011 Guidance, which
gave Division Offices wide discretion in determining the level of information to
include in Agreements, as well as the process for developing them. As a result,
individual Agreements varied widely in how key program areas and program risk
areas were included. Specifically:

• FHWA’s 2006 Guidance required that Agreements contain five program
  areas—environment, right-of-way, safety, systems operations and preservation,
  and design and construction. Of the 55 Agreements we reviewed, 23 (about
13
     Includes new and reconstruction projects in FMIS designated as “active” projects, as of October 24, 2011.
14
     The design-build approach is an innovative construction technique that allows a single procurement for the design
     and construction of projects.
                                                                               10


   42 percent) did not address all of the 5 required program areas, which reflects
   the limited oversight FHWA provided over Agreements. FHWA’s 2011
   Guidance identifies 11 program areas, but no longer requires that any of them
   be included in Agreements. Furthermore, neither the 2006 nor the 2011
   Guidance clearly describes what elements of the program areas Division
   Offices should address in Agreements, or requires Division Offices to
   document their rationale for including certain areas in their Agreements or for
   excluding others.

• None of the Agreements we reviewed cited a clear systematic methodology for
  including or excluding program risk areas. Program risk areas could reflect
  actual oversight conditions and management priorities in a particular State, or
  could simply be the negotiated result of what was acceptable to the State. In
  addition, neither the 2006 nor the 2011 Guidance required Division Offices to
  directly link the results of their annual risk assessments to their Agreements,
  despite FHWA’s considerable emphasis on its risk assessment process and
  commitment to ensuring risk-based oversight.

• We found a wide variation in the level of detail Division Offices included in
  their Agreements. For example, while the number of pages in an Agreement is
  not an indicator of the quality of an Agreement, the 9-page Agreements with
  Montana and Rhode Island provided only high-level descriptions of Division
  and State roles and responsibilities, compared with the more detailed
  descriptions provided in the nearly 200 pages in the Agreement with South
  Dakota.
While we recognize that Division Offices should have flexibility to tailor
Agreements based on individual State oversight programs and processes, the 2011
Guidance lacks a clear methodology for developing consistent Agreements that
would specify required program areas and priorities that must be included in
Agreements.

Guidance for Updating Agreements Was Not Clear
Neither the 2006 nor the 2011 Guidance were clear as to when Division Offices
are required to update Agreements to reflect changes in the FAHP and State
oversight. The 55 Agreements we reviewed were executed between calendar years
2004 and 2011, with most executed in 2009 or earlier. The Michigan Agreement
was the oldest agreement, which dated back to 2004, had not been revised at the
time of our review despite FHWA’s instructions to the Divisions to update the
Agreements to conform to the 2006 Guidance as appropriate, and to reflect major
legislation enacted in 2005 (SAFETEA-LU) and 2009 (ARRA). In contrast,
Colorado and Florida each updated their Agreements three times after the passage
of SAFETEA-LU to reflect changing circumstances.
                                                                                  11


In another instance, FHWA set aside its 2001 Agreement with Puerto Rico 15 in
2003, due to ongoing problems with administering the FAHP. Since then, all
FAHP projects have been under FHWA’s full oversight. In 2005, FHWA
designated Puerto Rico a “high-risk” grantee, but when it lifted the designation in
2008, it did not execute a revised Agreement. A “high-risk” designation increased
the importance of a revised Agreement to make sure Puerto Rico had clearly
identified oversight roles and responsibilities. However, Puerto Rico still has
critically important project roles and responsibilities that have not been identified
in an updated Agreement, based on the 2006 Guidance.
Finally, according to the 2006 Guidance, the State and FHWA Division Office
should sign the Agreement to signify that it constitutes a Memorandum of
Agreement regarding how the FAHP will be administered in the State. However,
the 2006 Guidance did not require the update of an Agreement when leadership
changes or a formal assessment as to whether leadership changes in a State
warrant modifications to the existing agreement, which we found frequently led to
Agreements that did not reflect changes in State leadership. While changes in
leadership do not necessarily negate the validity of an Agreement, a change in
leadership could significantly impact State controls and the oversight roles and
responsibilities addressed in an Agreement.
As shown in table 2 on the following page, our review of a random sample of
9 Agreements out of 55 found that 6 of the Division Administrators and 8 of their
State transportation counterparts who had signed the Agreements no longer hold
those positions. According to the 2011 Guidance, Division Offices are now to
consider updating an Agreement when leadership changes or priorities shift as a
result of changes in staffing at the State or FHWA Division Office. However,
FHWA Headquarters has not provided a mechanism by which to determine
whether a Division Office assessed the effect a leadership change would have on
the State’s program.




15
     Puerto Rico Highway and Transportation Authority.
                                                                                                               12


Table 2. Review of Sample of Agreements for FHWA and State
Signatory Approvals
                                                                         FHWA Division                  State
                                                      Agreement          Administrator        Transportation
                                   Year of                Length             Signatory             Signatory
     Division/State             Agreement                (Pages)          Still Present         Still Present
     California                         2010                     76                    No                     No
     Colorado                           2010                     99                   Yes                     No
     Georgia                            2008                     55                   Yes                     No
     Kansas                             2007                     14                   Yes                   Yes
     Maine                              2007                     40                    No                     No
     Michigan                           2004                     15                    No                     No
     Minnesota                          2007                    100                    No                     No
     Rhode Island                       2006                       9                   No                     No
     Tennessee                          2006                     45                    No                     No

Source: OIG analysis.

Guidance Does Not Detail a Role for Headquarters in Overseeing the
Development and Review of Agreements
FHWA Headquarters does not routinely review individual Agreements, even
though these reviews could serve as a key control to ensure that Agreements
reflect the intent of the Guidance, address FHWA’s oversight priorities, and are
updated based on changes in oversight conditions. Specifically, while the
Directors of Field Services (DFS) are responsible for monitoring Division Offices
and representing FHWA Headquarters, neither the 2006 nor the 2011 Guidance
defines roles for the DFS in overseeing Division Offices’ implementation of the
Guidance. Because they report directly to Headquarters, the three DFS are
uniquely positioned to take an active role in monitoring Agreements to increase
the likelihood that they are properly developed and implemented, in accordance
with the intent of the Guidance.
We also found that Division Administrators are signing agreements, but FHWA
has contradictory guidance for Agreement signature authority. Both the 2006 and
2011 Guidance specify that Agreements be signed at the Division Office level for
FHWA, which is contrary to guidance in FHWA’s Delegation and Organization
Manual. 16 The Manual authorizes DFS, but not Division Administrators, to sign
Agreements with States, thereby providing an appropriate level of executive
review. By not requiring DFS to sign Agreements, or to formally document
elsewhere their review and approval of Agreements, FHWA bypassed an


16
     FHWA’s Delegations and Organization Manual documents the official, approved delegations of authority vested in
     FHWA by law, regulation, or delegation from the Secretary of Transportation.
                                                                                13


important internal control to review Agreements from an FHWA-wide perspective
for appropriate stewardship and oversight of Federal funds.
Finally, Agreements are usually prepared by a team consisting of Division Office
management, subject matter experts, and technical staff, along with State
personnel. Two Division Offices stated they used on occasion an FHWA attorney
to review Agreements, even though neither the 2006 nor the 2011 Guidance
requires that Agreements receive a legal expert review before signature. While
there are no specific requirements to have a legal expert review Agreements, in
our opinion, it would be beneficial for FHWA to employ this type of control
process in developing Agreements since these are binding agreements between the
Federal Government and States that could involve billions of dollars in FAHP
funds and have no defined concluding date. The scrutiny that would be applied by
a legal expert would ensure Agreements consistently contain appropriate language
regarding States’ assumption of Federal oversight authority and are written in
accordance with Federal law.

CONCLUSION
A key to effective stewardship and oversight of the billions of dollars provided
under ARRA and the FAHP is the establishment of clearly defined Federal and
State oversight roles and responsibilities, which address program risks and
priorities. As Division Offices are just starting to implement the recently issued,
expanded Guidance on preparing Agreements, FHWA has an opportunity to
further strengthen its Agreements with the States. Our review identified elements
that FHWA could add to its Guidance to promote nationwide consistency in
Agreements and ensure that higher risk programs and priorities are addressed. If
FHWA’s intent is to support its risk-based approach to oversight, inclusion of key
requirements into the Guidance will standardize FHWA’s approach and help to
better target its limited resources.

RECOMMENDATIONS
We recommend that the Federal Highway Administrator:
1. Establish basic Agreement requirements and standards that:
   a. Include Federal requirements, FHWA program risks, and priorities;
   b. Require Division Offices to document their rationale for not addressing
      significant requirements, risks, and priorities in their Agreements; and
   c. Require DFS approval for such actions.
                                                                                 14


2. Modify FHWA’s policy of pre-approval of new or reconstruction projects on
   the Interstate Highway System that cost $1 million or more, to meet statutory
   requirements for FHWA to perform oversight of these projects.
3. Implement a coordinated and effective data-driven, risk-based approach for
   Division Offices and Directors of Field Services to review Agreements
   annually and make timely revisions, when appropriate.
4. Enforce the requirement for Directors of Field Services to sign Agreements, as
   specified in FHWA’s Delegation and Organization Manual, or change the
   Delegation and Organization Manual to allow Division Administrators to sign
   the Agreements and require Directors of Field Services to formally document
   elsewhere that they reviewed and approved the Agreements.
5. Develop and implement a process for FHWA to conduct a legal expert review
   of Agreements, before they are signed, to determine whether Agreements are
   in accordance with Federal law.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA our draft report on July 3, 2012, and received its response on
September 13, 2012. FHWA’s response is included in its entirety in the appendix
to this report. In its response, FHWA indicated that it was conducting a national
scan of Division-level management approaches to oversight, including the
effectiveness of Stewardship and Oversight Agreements. Based on the issues we
encountered in the course of our audit, we agree with this action. In addressing our
recommendations, FHWA concurred with recommendation 5 and concurred in
part with our remaining 4 recommendations. We consider recommendations 4 and
5 to be resolved but open pending receipt of documentation supporting the actions
taken.

Regarding recommendations 1 and 3, FHWA partially concurred, but stated that,
in its opinion those recommendations were overly prescriptive and did not
adequately address the differences between States. According to FHWA, no
further actions are needed because other oversight documents, methods, and tools,
particularly each Division Office’s Program of Oversight Initiatives (POI), address
the issues raised in our report. While we disagree that our recommendations would
impose a “one size fits all” set of prescriptive requirements, we recognize that
alternative approaches exist for improving the development and implementation of
Agreements. However, FHWA’s response emphasizes a much larger role for POIs
than the Agency previously described to us, and we have no evidence that FHWA
has effectively spelled out the relationship between POIs and Agreements or
ensured that POIs are integrated into the Agreement process for all States. For
                                                                                 15


example, the 2011 Agreement Guidance has only a cursory reference to POIs.
Thus, while we accept FHWA’s increased emphasis on the use of POIs as a key
oversight mechanism in lieu of making changes to its Agreement process, we
require additional evidence to support the claims FHWA made in its response.
Accordingly, we consider recommendations 1 and 3 unresolved until FHWA has
provided an action plan that (1) further clarifies the intended relationship between
Agreements and POIs, and (2) identifies the criteria to be used by the DFS for
approving POIs. We also request that FHWA demonstrate it has integrated POIs
into the Agreement process by providing us with FHWA guidance that reflects this
process and copies of POIs executed for all Division Offices. The POIs should
reflect FHWA’s emphasis on the role of POIs in the guidance and show the DFS
have appropriately approved them.

For recommendation 2, FHWA partially concurred, stating that the Moving Ahead
for Progress in the 21st Century Act (MAP-21) now allows the States to assume
authority for projects on the Interstate Highway System and clarified
congressional intent to be consistent with FHWA’s existing practices. MAP-21,
which became law on July 6, 2012, revised FHWA’s statutory oversight
framework. However, it requires that FHWA define high-risk categories and
prohibits States from assuming FHWA responsibilities within that category of
projects. Given that we found FHWA previously developed policies inconsistent
with Federal law, we are concerned similar issues may arise as FHWA develops
policies to implement MAP-21 oversight requirements. As a result, we consider
this recommendation to be unresolved until FHWA provides us a date when it will
update its policy that defines high-risk Interstate projects.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FHWA provide documentation demonstrating
completion of its planned actions for recommendations 4 and 5 within 30 days
after they are completed. For recommendation 2 we request a target action date
within 30 days. For recommendations 1 and 3 we request that FHWA provide the
additional information requested and target action dates within 30 days.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or David Pouliott, Program Director, at (202) 366-1844.

                                         #

cc:   DOT Audit Liaison (M-1)
                                                                               16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from May 2011 through June 2012, in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions, based on our audit
objectives.
To assess the extent to which Agreements fully reflected Federal requirements,
FHWA risks, priorities, and appropriate monitoring and timely update, we
reviewed all of the current 55 Agreements. In this review, we performed a
descriptive analysis of the Agreements, compared the content of the Agreements,
and evaluated whether Agreements included selected FHWA oversight program
risks and priorities. Our analysis also focused on risk areas relating to (1) the
implementation of ARRA, which added new FHWA and State oversight roles and
responsibilities for administering funds, transparency, and reporting; (2) LPA
oversight, which FHWA has identified as a significant ARRA oversight challenge
and had received significant ARRA funds; (3) the Highway Safety Improvement
Program, which FHWA separately identified as a major element of Agreements
and established specific areas to be addressed; and (4) the use of performance and
compliance indicators to manage the FAHP and improve program delivery.
Further, to assess the extent to which States may have improperly assumed
oversight over certain Interstate highway projects, we performed a legal review of
pertinent legislation, laws, and FHWA policy, supported with an analysis of data
obtained from FHWA’s FMIS.
To assess the extent to which FHWA’s guidance and oversight were sufficient for
the development and update of Agreements, we interviewed FHWA Headquarters
staff and the three DFS. In addition, we randomly selected nine Agreements for
review and interviewed the Division Administrators and their staff involved in
developing and reviewing those nine Agreements. We also interviewed other
Division Offices, when necessary, to clarify information contained in Agreements.
Additionally, we examined FHWA’s Stewardship and Oversight Guidance and
compared it to actual Agreements. We also reviewed other FHWA and Office of
Management and Budget guidance and memoranda relating to ARRA and
stewardship and oversight.




Exhibit A. Scope and Methodology
                                                                  17




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                              Title

David Pouliott                    Program Director

Stephen Gruner                    Project Manager

Cynthia Auburn                    Senior Analyst

Jeffrey Ong                       Senior Auditor

Fritz Swartzbaugh                 Associate Counsel

John Long                         Director, ARRA Investigations

Petra Swartzlander                Statistician

Megha Joshipura                   Statistician

Harriet E. Lambert                Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                      18


APPENDIX. AGENCY COMMENTS


                                                Memorandum
Subject: INFORMATION: Federal Highway                                         Date: September 13, 2012
         Administration Response to Office of Inspector
         General (OIG) Draft Report on Stewardship and
         Oversight Agreements

 From: Victor M. Mendez                                                               In Reply Refer To:
       Administrator                                                                           HIF/HCF

    To: Calvin L. Scovel III
        Inspector General (J-1)


        Over the past 2 decades, Congress has shifted the oversight approach of the Federal Highway
        Administration (FHWA) away from the individual project level to a broader program-based
        model. The Intermodal Surface Transportation Efficiency Act of 1991 assigned many FHWA
        responsibilities to the States, an initiative furthered in 1998 by the Transportation Equity Act
        for the 21st Century, which also required FHWA and the States to enter into an agreement
        relating to the extent to which the State assumes the responsibilities of FHWA. In response,
        FHWA required Stewardship and Oversight Agreements (Agreements) to formalize the
        respective roles and responsibilities of FHWA and the State departments of transportation
        (DOT) for the federally assisted, State-administered Federal-aid highway program (FAHP).
        The FHWA continues to evaluate the recent changes enacted within the most recent surface
        transportation funding authorization, Moving Ahead for Progress in the 21st Century Act
        (MAP-21).


        Stewardship and Oversight Agreements Delineate Roles and Responsibilities

        The OIG draft report does not accurately portray the role of Stewardship and Oversight
        Agreements, or how Agreements fit within FHWA’s overall oversight context.
        Stewardship and Oversight Agreements with the States are intended to delineate oversight
        responsibilities among the FAHP participants. They are not intended to provide a one-stop-
        shop for all matters relating to the working relationship between FHWA and the States, nor are
        they expected to provide comprehensive guidance with regard to the FAHP. In order to
        provide a more accurate understanding of what the Agreements are and what they are not, it is
        necessary to examine FHWA’s oversight actions from the overall context of its complete
        system of internal controls.

        With the general devolution of authority for the conduct of highway projects moving from the
        Federal Government to the States over a series of surface transportation authorizations at
        Congress’ direction, these documents are intended to suit the needs of unique State


Appendix. Agency Comments
                                                                                                 19


     circumstances and the FHWA Division Offices with which they interact. These Agreements
     were intended to simply outline roles and responsibilities in whatever way was most useful to
     the States and Division Offices based on each State’s needs – they were not intended to be
     consistent from State to State or enforce requirements that do not add value to the program.
     For example, it is not constructive to require the States to explain the rationale for not
     including discussion of requirements that are not applicable to their given circumstances, such
     as including locally administered projects when a State does not normally allow them. As a
     result, it is important to understand and expect that for example, the Stewardship and
     Oversight Agreement with California is different from the Agreement with Delaware.

     Stewardship and Oversight Agreements are just one of many documents outlining the detailed
     requirements, risks, and priorities involved in administering the FAHP. Agreements therefore
     serve as a compendium of elements that go beyond statutory requirements, making reference
     to the many other control documents that are continually reviewed and updated – such as
     Leadership Dashboard targets, Unit Plans, the Risk Register, Financial Integrity Review and
     Evaluation reports – along with State DOT manuals and procedures reviewed by FHWA.
     Together, these documents enable FHWA to assess how State DOTs fulfill their respective
     responsibilities.

     Since Stewardship and Oversight Agreements are intended to serve the direct needs of the
     States and the FHWA offices providing oversight, they are afforded flexibility under guidance
     to address those needs important to State and local conditions. While the OIG draft report cites
     as an inconsistency the fact that 9 of 55 Agreements referenced the American Recovery and
     Reinvestment Act (Recovery Act), FHWA considers it a demonstration of the strength of the
     Agreements and their inherent flexibility. From a national perspective, it was not necessary to
     adjust oversight requirements due only to the source of project funding. Recovery Act funds,
     by statute, were to be spent within the context of existing programs, which have established
     internal controls. The fact that 9 States and FHWA Division Offices considered their programs
     and saw it useful to adjust their Stewardship and Oversight Agreements demonstrates the
     utility and resiliency of these Agreements. The OIG draft report does not include an evaluation
     of the rationale behind these decisions, nor does it evaluate States’ reasons for not revising
     Agreements, which likely saw existing systems as sound and adequate for Recovery Act
     implementation. Further, by not conveying a sense of the context in which these Agreements
     function, particularly in the Recovery Act environment, the report does not acknowledge
     FHWA’s enhanced internal controls for the Recovery Act, such as the FHWA National
     Review Teams.


     Stewardship and Oversight Agreements Are Only One Element of FHWA Oversight
     Planning

     The utility and effectiveness of Stewardship and Oversight Agreements should be considered
     within the context of each Division Office’s Program of Oversight Initiatives (POI). The POI
     conveys the oversight schema describing how each FHWA Division Office implements
     oversight within an overall context of national and State requirements, risks, and priorities.




Appendix. Agency Comments
                                                                                                  20


     Much of the specific content that the OIG draft report concluded was missing from
     Agreements is included in the POI, risk registers, and the unit plans. The POI references
     identified risks and oversight initiatives and is updated annually in accordance with established
     guidance. The POI’s linkage to Stewardship and Oversight Agreements and other key
     oversight documents provide clear traceability between the Division Offices’ risk analysis and
     planned program management initiatives—including progress tracking systems, national and
     division-level reviews, results of performance indicator trend analyses, and comprehensive
     lists of priority risks and progress toward mitigation. Agreements provide the outline of
     responsibilities between the State DOT and FHWA and should not be considered independent
     of all the other aspects of FHWA’s comprehensive, risk-based oversight approach, such as the
     POI, risk registers, and the unit plans.


     FHWA Refining Stewardship Agreement Requirements, Implementation, and Oversight
     Due to New Authorizing Legislation

     The FHWA has conducted periodic reviews to ensure that Stewardship and Oversight
     Agreements fulfill their role as effectively as possible, resulting most recently in the 2011
     revision of FHWA’s Stewardship and Oversight guidance, which called for more
     comprehensive Agreements covering project delivery and financial controls of the FAHP. The
     revisions implemented in 2011 are increasing the utility of these Agreements and providing
     greater clarity for them. At a minimum, Agreements updated since the release of the guidance
     should cover how the Division Office and the State DOT will develop and implement program
     reviews to evaluate compliance with established procedures and policies, including
     documentation of States’ internal controls and pre-determined schedules for regular reviews of
     specific programs or components, such as project management plans, initial and annual
     finance plan submissions, cost estimate reviews, internal evaluations, and risk assessments.
     For projects where oversight is assumed by the State DOT, FHWA retains authority for
     submission of risk assessment materials, sharing of reviews and strategic performance
     information, and reviewing the adequacy of the documentation to support the appropriate
     expenditure of Federal-aid funds.

     Since FHWA issued the 2011 guidance, 34 FHWA Division Offices, in coordination with their
     respective States, have identified a need to update their Stewardship and Oversight
     Agreements and plan to complete the updated Agreements by 2013. All 7 completed
     Agreements to date conform to the guidance template, including reference to performance
     measures and internal control documents such as risk assessments, program reviews, quality
     assurance reviews, project and process evaluations, and performance management indicators.
     The OIG draft report, in its call for prescriptive requirements and national uniformity, seems
     somewhat retrospective in its perspective, and ignores the Federal Government’s overall
     movement away from one-size-fits-all requirements and toward more functional requirements
     that enable locally appropriate solutions that can be fulfilled in a manner that makes sense to
     those doing the work. The utility of these Agreements is measured by whether they include
     elements useful to Division Offices and States in fulfilling overall national requirements, and
     not in counting the presence or absence of specific elements.




Appendix. Agency Comments
                                                                                                  21


     To ensure that Division Offices and States are effectively implementing requirements for
     Stewardship and Oversight Agreements, and to best position FHWA to be able to
     accommodate the continued evolution of Federal and State roles envisioned in MAP-21, the
     FHWA Program Management Improvement Team (PMI Team) is conducting a national scan
     of division-level management approaches to oversight, including the effectiveness of
     Agreements. Specifically, it will review relevant strategic planning and risk management
     documents, Agency and division-level guidance, and external audit reports; interview
     leadership and staff to gauge how they implement and measure oversight initiatives and track
     the implementation of planned initiatives presented in the POI; and assess the use of
     Agreements and Agreement guidance in providing an oversight framework for State and
     locally administered activities. Upon completion of this review, the PMI Team will identify
     recommendations to help improve future FHWA oversight.


     OIG Recommendations and FHWA Responses

     Recommendation 1: Establish basic Agreement requirements and standards that:
         a. Include Federal requirements, FHWA program risks, and priorities;
         b. Require Division Offices to document their rationale for not addressing significant
            requirements, risks, and priorities in their Agreements; and
         c. Require Director of Field Service (DFS) approval for such actions.

     FHWA Response: Concur in Part. The FHWA does not agree that these Agreements should
     be based on a one-size-fits-all set of prescriptive requirements. In other words, one should
     expect that for example, the Stewardship and Oversight Agreement with California is different
     from the Agreement with Delaware. Stewardship and Oversight Agreements, as required by
     Federal statute, are an outline of roles and responsibilities for administering the FAHP; they
     are not required to contain specific requirements, risks, or priorities. Rather, Agreements
     reference documents that do contain this information or methods that will be considered, such
     as the POI, unit plans, risk assessments, and review programs. The POIs require the DFS’
     agreement and approval and are used by the DFSs to monitor and assess the Division Offices
     proposed oversight activities over FAHP recipients. Since the Agreements include reference to
     the POI and other oversight planning tools, which serve as more practical means to capture
     requirements, program risks and priorities, they fulfill the actions and intent outlined in the
     OIG recommendation. Based on actions already taken by FHWA relating to this
     recommendation, FHWA requests OIG close the recommendation upon receipt of this
     response.


     Recommendation 2: Modify FHWA's policy of preapproval of new or reconstruction projects
     on the Interstate Highway System that cost $1 million or more, to meet statutory requirements
     for FHWA to perform oversight of these projects.

     FHWA Response: Concur in Part. Section 1503 in the MAP-21 legislation allows States to
     assume FHWA’s authority for projects on the Interstate System at the discretion of the
     Secretary. As this legislation clarified congressional intent, which is consistent with FHWA’s




Appendix. Agency Comments
                                                                                                22


      practice, FHWA requests OIG close the recommendation upon receipt of this response.


     Recommendation 3: Implement a coordinated and effective data-driven, risk-based approach
     for Division Offices and Directors of Field Services to review Agreements annually and make
     timely revisions, when appropriate.

     FHWA Response: Concur in Part. The FHWA already does this through the POIs, which is a
     data-driven, risk-based approach for annually reviewing FHWA Division Offices’ oversight
     initiatives. To identify opportunities for improvement, POIs are reviewed by the DFSs and
     Division Offices. The FHWA guidance encourages Agreement revisions according to these
     identified opportunities as appropriate when priorities change. Based on FHWA already
     having completed the work necessary to satisfy the recommendation and for reasons
     exemplified in response to recommendation 1, FHWA requests OIG close the recommendation
     upon receipt of this response.


     Recommendation 4: Enforce the requirement for Directors of Field Services to sign
     Agreements, as specified in FHWA's Delegation and Organization Manual, or change the
     Delegation and Organization Manual to allow Division Administrators to sign the Agreements
     and require Directors of Field Services to formally document elsewhere that they reviewed and
     approved the Agreements.

     FHWA Response: Concur in part. The FHWA Delegations and Organization Manual
     provides the authority for Division Administrators to sign Stewardship and Oversight
     Agreements. Though Agreements are not explicitly mentioned, Chapter 5 of the Manual on the
     FAHP authorizes Division Administrators to approve projects at all levels of development, and
     Chapter 1 regarding “Residual Authorities” asserts that “authorities not specifically delegated
     to FHWA officials…may be exercised by…Division Administrators.”

     While FHWA’s practices have been consistent with our current delegations of authorities,
     FHWA recognizes the benefit of being more explicit in our FHWA Order regarding the
     signature level of Stewardship and Oversight Agreements. Therefore, FHWA plans to clarify
     the authority of Division Administrators to sign Agreements with State DOTs in the Manual or
     through issuance of a guidance memo. To allow for adequate review of the results and
     recommendations from the PMI Team’s national efforts, the FHWA plans to perform this
     update by December 31.


     Recommendation 5: Develop and implement a process for FHWA to conduct a legal expert
     review of Agreements, before they are signed, to determine whether Agreements are in
     accordance with Federal law.

     FHWA Response: Concur. The Stewardship and Oversight Agreement Guidance developed
     in 2011 received legal review, and FHWA intends to formalize a process to include a legal




Appendix. Agency Comments
                                                                                                 23


     review to ensure that Agreements are consistent with laws, regulations, and policies, especially
     in light of MAP-21. To allow for adequate review of the results and recommendations from
     the PMI Team’s national efforts, by December 31, FHWA will establish through guidance or
     memo procedures to include a legal review as part of the concurrence process before
     Agreements are signed by the Division Administrator and the State DOT.

                                              -- -- -- -- -- --

     The FHWA appreciates the opportunity and time afforded to respond to the draft report. If you
     have any questions or comments regarding this response, please contact David Nicol, Director
     of Program Administration, Office of Infrastructure, at 202-366-5530.




Appendix. Agency Comments
